DALLAS | AUSTIN | BATON ROUGE | NEW ORLEANS

eS CHICO | LOS ANGELES | SAN DIEGO

BARON © BUD D,; P.C. NEW JERSEY | NEW YORK | WASHINGTON, D.C.
Home Office:

800.222.2766 3102 Oak Lawn Avenue

tel 214.521.3605 Suite 1100

fax 214.520.1181 Dallas, TX 75219-4281

September 23, 2019

Via Federal Express

Overnight Delivery

Danny Bickell

Deputy Clerk

Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: Pfizer Inc., et al. v. Superior Court of California for the County of Los
Angeles, et al., No. 19-278

Dear Mr. Bickell:

I am counsel for respondents in the above-referenced case. On August 28, 2019, a
certiorari petition was docketed in this case. Unless extended by the Court, the response to
this petition would be due on October 3, 2019. For the reasons that follow, and pursuant to
Rule 30.4, I respectfully request an extension of 30 days, to and including November 4, 2019.

On September 16, 2019, I was contacted by counsel for various amici who indicated
that they intend to file amicus briefs in support of Pfizer’s petition in this case. I gave
Respondents’ consent to these filings. I would like the benefit of reviewing any and all
amicus filings supporting the petition before Respondents are required to respond.

I consulted with Pfizer’s counsel regarding this request and that Pfizer does not
oppose the relief requested.

For these reasons, I ask that a 30-day extension be granted. Thank you for your
attention to this matter.

Sincerely,
BARON & Bubb, P.C.

Charles G, Orr
Counsel for Respondents

  

c: Michael McGinley, Counsel for Petitioner
